U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

July 21, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Tuan Ngoc Luong v. United States, No. 20-7998
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 7, 2021.
The government’s response is now due, after one extension, on August 5, 2021. We respectfully
request, under Rule 30.4 of the Rules of this Court, a further extension of time to and including
September 6, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-7998
LUONG, TUAN NGOC
USA

JOHN PAUL REICHMUTH
OFFICE OF THE FEDERAL PUBLIC DEFENDER
1301 CLAY STREET
STE. 1350N
OAKLAND, CA 94612
510-637-3500
JOHN_REICHMUTH@FD.ORG

